APPENDIX A

United States v. Higgins
United States Court of Appeals for the Fifth Circuit
February 4, 2021, Filed
No. 19-10885 Summary Calendar
Reporter
834 Fed. Appx. 965 *; 2021 U.S. App. LEXIS 3142 **; 2021 WL 406104

UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus COLVIS JERROD HIGGINS, Defendant—Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:19-CR86-1.
Counsel: For United States of America, Plaintiff - Appellee:
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Dallas, TX.
For Colvis Jerrod Higgins, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Lubbock, TX;
Taylor Wills Edwards Brown, Federal Public Defender's
Office, Fort Worth, TX.

Colvis Jerrod Higgins, Defendant - Appellant, Pro se, Pollock,
LA.
Judges: Before HIGGINBOTHAM, JONES, and COSTA,
Circuit Judges.

Opinion
[*965] PER CURIAM:*
Colvis Jerrod Higgins pleaded guilty to possessing a firearm
following conviction of a felony offense based on his sale of a
handgun to an undercover officer during the course of a drug
trafficking investigation. The district court sentenced Higgins
to a term of imprisonment of 96 months to be followed by a
three-year term of supervised release. As a special condition

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

of [*966] supervised release, the district court ordered
Higgins to participate in treatment for substance dependency,
to contribute to the cost of that treatment, and to abstain from
the use of alcohol and all other intoxicants during and after
treatment. Higgins now argues [**2] that the district court's
imposition of the special condition constitutes reversible plain
error because the district court failed to set forth reasons
justifying its imposition, the treatment and abstinence
requirements are not reasonably related to the 18 U.S.C. §
3553(a) sentencing factors, and the nature of the error
warrants discretionary relief.
District courts "possess broad discretion to impose special
conditions of supervised release," subject to the limitations set
forth in § 3553(a) and 18 U.S.C. § 3583(d). United States v.
Bree, 927 F.3d 856, 859 (5th Cir. 2019) (internal quotation
marks and citation omitted). Although they must provide
factual findings to justify the imposition of a given special
condition, this court may affirm in the absence of such
findings "where the district court's reasoning can be inferred
after an examination of the record." United States v.
Caravayo, 809 F.3d 269, 275 (5th Cir. 2015) (internal
quotation marks, citation, and alteration omitted). Review
here is for plain error because Higgins did not object to the
treatment and abstinence special condition after the district
court orally pronounced it. See United States v. Alvarez, 880
F.3d 236, 239 (5th Cir. 2018). To obtain relief, Higgins must
show a forfeited error that is clear or obvious and that affects
his substantial rights. See id. If he makes such a showing, this
court should exercise its discretion to [**3] correct the error
if the error seriously affects the fairness, integrity, or public
reputation of judicial proceedings. See Rosales-Mireles v.
United States, 138 S. Ct. 1897, 1906, 201 L. Ed. 2d 376
(2018).
Based on the evidence in the record regarding Higgins' drug
use and criminal history, the district court did not plainly err
in imposing both the treatment and abstinence requirements.
See United States v. Hinojosa, 956 F.3d 331, 334-35 (5th Cir.
2020); United States v. Cothran, 302 F.3d 279, 290 (5th Cir.
2002). Accordingly, the judgment is AFFIRMED.

End of Document

Brandon Beck

APPENDIX B

Case 4:19-cr-00086-A Document 40 Filed 08/02/19

Page 1 of 5 PageID 89

19-10885.54

Case 4:19-cr-00086-A Document 40 Filed 08/02/19

Page 2 of 5 PageID 90

19-10885.55

Case 4:19-cr-00086-A Document 40 Filed 08/02/19

Page 3 of 5 PageID 91

19-10885.56

Case 4:19-cr-00086-A Document 40 Filed 08/02/19

Page 4 of 5 PageID 92

19-10885.57

Case 4:19-cr-00086-A Document 40 Filed 08/02/19

Page 5 of 5 PageID 93

19-10885.58

